APPENDIX

%%

STATE OF ILLINOIS

)
)SS

COUNTY OF LAKE

)

w116 o
MAR 2 6 2018

IN THE CIRCUIT COURT OF THE NINETEENTH
JUDICIAL CIRCUIT, LAKE COUNTY, ILLINOIS

)
)
)
)
)
)
)
)
>

MARJORY MOTIAYTIS,

Plaintiff
v:
RICHARD J. KELLY, et al,
Defendants.

twtClRCUrfCLERK

Case No. 16 CH 912

ORDER
This matter is before the Court for ruling on (1) Plaintiffs Amended Motion for Summary
Judgment filed on October 19,-.2017, (2) Defendants’ 2-619 Motion to Dismiss filed on December
and (3) Defendants’ 2-619 Motion to Dismiss filed on January 25,2018. Having carefully
7,2017,
considered the parties’ written submissions, including statutory authority and case law cited therein
as well the oral argument of counsel on March 9,2018,
THE COURT FINDS:.
1

On June 14,2016, Plaintiff filed her Complaint in Chancery pursuant to 65 ILCS 5/11-1315. Plaintiff alleged that she is the owner of real property located within 1200 feet of
Defendants’ property at 516 Cummings Avenue in Waukegan (the subject property), and
that Defendants’ vacant single-family home and property was being maintained or used in
violation of the City of Waukegan Property. Maintenance and Housing Code and Zoning
Ordinance. Plaintiff further alleged that Defendants’ property was in an overall state of
dilapidation giving rise to 13 specific ordinance violations (paragraph 5 subsections a-m of
the complaint). In pertinent part, Plaintiff alleged that there was a large hole on the north
side of the building apparently caused by fire damage, that there were broken windows and

1
C 463

*

boarded up doors, that there was damaged, stained, broken or deteriorated siding and a
deteriorated roof, as well as a fence in disrepair with missing pieces. The complaint also
included an allegation that Defendants’ vacant property was not registered in compliance
with the City of Waukegan’s Vacant Structure Registration Ordinance.

2. Section 11-13-15 of the Illinois Municipal Code provides in pertinent part:
In case any building or structure * * * is constructed, reconstructed, altered,
* * * is used in violation of an ordinance or
Sances^opted und^Diviston 13, 31 or 31.1 of the Illinois Municipal Code,
or of any ordinance or other regulation made under the authority conferred thereby,
the proper local authorities of the municipality, or any owner or tenant of real
property, within 1200 feet in any direction of the property on which the building or
structure in question is located who shows that his property or person will be
substantially affected by the alleged violation, in addition to other remedies, may
institute any appropriate action or proceeding (1) to prevent the unlawful
construction, reconstruction, alteration, repair, conversion, maintenance, or use, (/)
to prevent the occupancy of the building, structure or land, (3) to prevent any l eg
act, conduct, business, or use in or about the premises or (4) to restrain, correct, or
abate the violation. * * *
In any action or proceeding for a purpose mentioned in this section, the court with
jurisdiction of such action or proceeding has the power and in its discretion may
issue a restraining order, or a preliminary injunction, as well as a permanent
injunction, upon such terms and under such conditions as will do justice and enforce
the purposes set forth above. * * *
An owner or tenant need not prove any specific, special or unique damages to
himself or his property from the alleged violation in order to maintain a suit under
the foregoing provisions.
•: .

3. Section 11-13-15 provides for attorney fees as follows:
If an owner or tenant files suit hereunder and the court finds that the defendant has
engaged in any of the foregoing prohibited activities, the court shall allow toe
plaintiff a reasonable sum of money for the services of the plaintiffs attorney. This
allowance shall be a part of the costs assessed against the defendant, and may be
recovered as such.
•4. Defendants were served with Plaintiff s complaint on June 24,2016.

2
' C 464

5. Oil July 22,2016, Defendants filed their appearance through counsel and their first section
2-619 motion to dismiss. The motion contained several factual allegations including that
the subject property was damaged by fire on May 15, 2015, that the property was not
defined by Waukegan’s Ordinance, and that'“between May 15 and July 8,
“vacant” as
Defendants diligently worked on the repair and subsequently the demolition of their
2016,
damaged property.”
6. As Plaintiff recognized in her response to the motion to dismiss, the factual allegations set
forth in Defendants’ motion were made without supporting affidavits or other competent
proof.
7. After extended briefing and an unsuccessful pretrial settlement conference, the Court
denied Defendants’ 2-619 motion on December 16, 2016 because none of the factual
allegations pertaining to the history of the subject property or state of the subj ect property
were supported by any admissible evidence.
8.' On December 16, 2016, Defendants were also given until January 16, 2016 [sic] to file
their Answer to the complaint. No Answer was filed by January 16,2017 (or at any time).
No motion seeking entry of default has ever been advanced by Plaintiff.
9. On January 30, 2017, Plaintiff filed her first motion for summary judgment.
10. On March 8,2017, Defendants’ attorney filed amotion to stay the case due to certain health
problems.
11.

On March 16, 2017, the parties tendered a proposed agreed order that was entered by the
Court. Pursuant to the agreed order, the hearing on the motion for summary judgment was

■ continued to July 20, 2017.
12. On June'28, 2017, Defendants filed.their motions to .declare 65 ILCS 5/11-13-15
unconstitutional. The motions were first.continued due to Defendants’ failure to serve
notice on the Attorney General as required by Supreme . Court Rule 19, and the motions

- 3
C 465

were subsequently denied on July 20,2017.
13. Defendants filed their first motion for summary judgment on August 4,2017, arguing that
Plaintiff had failed to provide a notice that is required to be given whenever Waukegan s
“Code official” determines that there has been a violation of the Code. On September 1,
the Court denied Defendants’ motion for summary judgment as Plaintiff is not a
2017,
“Code official” and nothing in Section 11-13-15 requires that a neighboring property owner
defendant in an 11-13-15 case. In fact, the extension of
give pre-filing notice to a
enforcement authority to landowners is to afford relief to private citizens in a case like this
where the municipality has not enforced its ordinances. Patella v. Leyden Family Service
& Mental Health Center, 79 Ill. 2d 493, 501-02 (1980).
14. On September 7,2017, Plaintiff filed her Amended Motion for Summary Judgment.
15. On September 29,2017, Defendants filed amotion challenging Plaintiff s failure to comply
with Local Rule 2-1.04 given Plaintiffs failure to include a statement of uncontested
material fact addressing venue and jurisdiction in this Court. On October 13, 2017,
Plaintiff was granted leave to file a compliant 2-1.04 statement.
16. On October 19, 2017, Plaintiff filed her second amended motion for summary judgment
(titled Plaintiffs Amended Motion for Summary Judgment) which motion is pending
'

before the Court. Plaintiffs pending motion for summary judgment is supported by (1) the
affidavit of Marjory Motiaytis dated January 26, 2017, (2) affidavits of Amy. L. Strege
dated January 30,2017 and August 23,2016, (3) the affidavit of H. Clayton Summers dated
January 28,2017, (3) a certified copy of a recorded quit claim deed transferring the subject

.

property to Defendants dated August 24, 2006, and (4) the complaint with its supporting
exhibits.
17 0n October 12, 2017, Defendants filed their “Motion to Determine if Plaintiff Can Show
That She Will be Substantially Affected by Real Property That Has Been Demolished .
The motion cited to no provision of the Code of Civil Procedure or other authority on which
the motion was based. Again, there was no affidavit or other evidence submitted by

4
C 466

Defendants establishing the facts they alleged. Defendants withdrew the motion on October
19,2017.:
18. On October 19, 2017, the Court entered a briefing schedule on Plaintiff’s pending motion
for summary judgment.

Defendants filed-a timely response on November 30, 2017 and

Plaintiff filed a timely reply on December 21,2017.
19. On December 7,2017, Defendants filed a 2-619 motion to dismiss arguing that this case is
moot because Defendants were in the process of demolishing the structures on the subj ect
prope

rty when this lawsuit was filed and the property has been demolished. Again, there

affidavit supporting Defendants’ motion. Defendants did attach unauthenticated
was no
copies of two photos that appear to show a vacant lot. The date die photos were taken, by
whom they were taken and information detailing.what specifically the photos depict was
not included in the motion.
20. On January 25, 2018, Defendants filed yet another 2-619 motion to dismiss arguing in
conclusory fashion that Plaintiff has sustained no injury to any legally cognizable interest,
• Again, no

evidence supporting factual allegations in the motion was included.

21. On February 8,2018, Plaintiff filed her response to the pending motions to dismiss. While
Plaintiff contends in her response that the date of demolition/compliance is not relevant to
Plaintiff did provide the Court with an affidavit
the Court’s resolution of this case,
confirming that a demolition permit was issued for the subject property on June 27, 2016.
undated affidavit of Ms. Lonergan also states that by late July or early August
The
(presumably 2016), the house, garage and fence had been demolished and the ground was
graded, seeded and mowed and all litter and debris was removed. Plaintiff further argued
11-13-15 action is proper and subject matter jurisdiction is established if Code
• that an
violations exist at the time of filing because no plaintiff need be a fortune-teller with respect
to a defendant’s future actions.
22. Plaintiff emphasizes in her response to the motions to dismiss that the provision on the
award of attorney fees states that an award of fees and costs is proper when the court finds

5
C 467

of the prohibited activities rather than “is
that the defendant “has engaged” in any
engaging” in any of the prohibited activities. Plaintiff further argues that an 11- 13-15 claim
is not mooted by a subsequent cure of Code violations based on Meyer v Marshall, 62111.2d
435 (1976) and LaSalle National Bank v. City of Chicago, 3 IU.2d 375 (1954;. Neither of
both involved matters that had become moot pending
those cases is directly on point as
where 11-13-15 code violations were abated while proceedings
appeal rather than cases
some support in Meyer as
were pending in the trial court. Nonetheless, Plaintiff can find
the trial court’s fee award was ultimately upheld in Meyer even though the case had beco me
moot because the defendants had abandoned their original project.
appellate court has observed succinctly: “[rjelief under section 11-13
23. More recently, our
15 is not limited to injunctive relief.” Bockweg v. Konopiots, 2013 IL App (1st) 121122 at
^125. Accordingly, Defendants’ argument that an abatement obviating the need for
injunctive relief moots any claim under 11-13-15 is not persuasive to the undersigned
the Court has found no authority
judge, Looking to the specific claim in this case,
sting that so long as all violations are abated before judgment, an 11-13-15 plaintiff s
sugge
costs incurred in connection with the enforcement action is
ability to recover any fees or
extinguished.
24. With respect to the second pending motion to

dismiss, the Court cannot agree with

Defendants’ argument that Plaintiff has sustained no injury to any legally cognizable
interest. Our appellate court has found that the zoning violation itself establishes the
tial effect” sufficient to enable an owner within the requisite 1200 feet to maintain
“substan
Illinois Housing Development Authority, 150 111.
an action under the statute. Greer v.
1986), aff'd 122 IU.2d 462 (1988). Moreover, as Plaintiff
• App.3d 357, 389 (1st Dist.
recognizes, the statute clearly provides that an owner residing within 1200 feet of allegedly
noncompliant property need not prove any specific, special or unique damages to himself
any adverse effect upon his property in order to maintain an action under
or his property or
15. Defendants’ invitation to the Court to ignore Greer because it was
section 11-13wrongly decided and it is not binding displays a fundamental misunderstanding of the
Court’s role. Decisions of the appellate court are binding on the circuit courts regardless of
locale.

Delgado v. Board ofElection Com ’rs ofCity ofChicago, 224111.2d 481,488 (2007).

6
C 468

When conflicts arise between appellate districts, a trial court is bound by the decisions of
the appellate court of the district in which it sits, but here.there is no conflict because our
Second District does not disagree withGreer. See Ruisard v. Village of Glen Ellyn, 406
Ill. App.3d 644, 658 (2nd Dist. 2010). Accordingly, Plaintiff has standing to sue as there is
no dispute that she owns property within 1200 feet of the subject property. Further, she has
sustained an injury to a legally cognizable interest following Greer and its progeny.
25. Moving to Plaintiffs pending motion for summary judgment, the Court finds that it has
both personal and subject matter jurisdiction and venue is proper in the Nineteenth Judicial
Circuit. Defendants5 contention that this Court lacks subject matter jurisdiction over cases
arising under section 11-13-15 has no merit.
26. In her motion filed on October 19, 2017, Plaintiff submitted a 2-1.04 statement detailing
her proposed uncontested material facts with appropriate citations to supporting evidence.
In their response filed on November 30, 2017, Defendants deny that violations existed on
the date of filing without any citation to competent evidence. The few pages of
unauthenticated correspondence attached to Defendants’ response cannot be considered by
the Court (and even if the Court could consider them, they would not support the conclusion
that none of the alleged code violations existed when the case was filed). Motions for
summary judgment are to be decided by admissible evidence rather than unsworn
of counsel or unauthenticated exhibits. The facts contained in Plaintiffs 2-1.04
assertions
statement filed on October 19,2017 have been established and are adopted as the Court’s
findings. Therefore, it has been established through Plaintiff’s motion that the subject
property was being maintained or used in violation of Waukegan’s Property Maintenance
and Housing Code and Zoning Ordinance on the date this case was filed and for some
period thereafter before the violations abated.
27. The Court understands Defendants’ emphasis on the fact that after the case was filed, they
into compliance with City ordinances. In fact, while Defendants did not develop a
came
factual record, they may have abated the violations as early as July 8, 2016. They may
even have begun to plan privately for abatement before the case was filed. Still, there is no

I'
C 469

evidence that there were any significant steps toward abatement in the months after the fire
and before the case was filed, and there is evidence that no building or demolition permit
had been issued for any work until after the case was filed. Further, the photos included
with the affidavit of H. Clayton Summers do not depict a property in the process of
, but instead they depict the type of conditions that 11-13-15 was designed to
abatement
address. The private right of action for neighboring property owners is intended to prompt
abatement when the municipality fails to address code violations and that appears to be
this case. Through Plaintiffs pending motion for summary judgment, it
what happened in
blished that Defendants have engaged in prohibited activities under the statute
has been esta
during the pendency of these proceedings.
IT IS THEREFORE ORDERED:
1. Defendants’pending motions to dismiss are denied.

2. ■

Plaintiff s pending motion for summary judgment is granted.

3. Plaintiff may file her petition for attorney fees and costs within 28 days as the Court
has found that Defendants engaged in prohibited activities under Section 11-13-15
and an award of fees is therefore mandatory.
Motion for Summary Judgment filed on March 13, 2018 is denied as
4. Defendants’
moot, the Court having entered judgment in favor of Plaintiff. The presentment date
for that motion, March 29,2018 is stricken.

ENTER:
Judge

Dated this 23rd day of March, 2018 at Waukegan, Illinois.

8
C 470

lit TXT li

nm

State of Illinois

Appellate Court
Clerk of the Court
(847) 695-3750

Second District
55 Symphony Way
Elgin, IL 60120

September 17, 2019
RE: Motiaytis, Marjory v. Kelly, Richard J., et al.
General No.: 2-18-0599
County: Lake County
Trial Court No: 16CH912

The enclosed Summary Order in the above cause has been filed this date.

Robert J. Mangan
Clerk of the Appellate Court
cc:

Amy Lynn Lonergan
Anna Elizabeth Finn Vinson
Earline D. Navy
Hon. Margaret A. Marcouiller

TDD
(847) 695-0092

2019IL App (2d) 180599-U
No. 2-18-0599
Summary Order filed September 17, 2019

NOTICE: This order was filed under Supreme Court Rule 23(c)(2) and may not be cited
as precedent by any party except in die limited circumstances allowed under Rule
23(e)(1).

IN THE
APPELLATE COURT OF ILLINOIS
SECOND DISTRICT
MARJORY MOTIAYTIS

)
)

Plaintiff-Appellee,

)
)

v.

)

RICHARD J. KELLY & ETHEL J.
KELLY, individually and as Trustees of
the Trust Agreement of Richard J. Kelly
and Ethel Kelly dated August 24, 2006,
Defendants-Appellants.

Appeal from the Circuit Court
of Lake County.

No. 16-CH-912

)
)
)
)

)
)
)

Honorable
Margaret A. Marcouiller,
Judge, Presiding.

JUSTICE HUTCHINSON delivered the judgment of the court.
Justices Zenoff and Hudson concurred in the judgment.
SUMMARY ORDER

If 1

The Adjacent Landowners Act (65 ILCS 5/11-13-15 (West 2016)) empowers nearby

landowners and tenants to bring an action to enforce municipal building and zoning ordinances
against the owner of any property in violation of those ordinances. The purpose of this section is
to provide relief to private landowners where municipal authorities are slow or reluctant to act, or
where their efforts may prove inadequate. Dunlap v. Village of Schaumburg, 394 Ill. App. 3d

2019IL App (2d) 180599-U
629, 638 (2009). The statute also provides for the recovery of attorney fees if the court finds
defendants have engaged in “any *

12

* *

prohibited activities.” 65 ILCS 5/11-13-15.

In this case, on June 14, 2016, plaintiff, Marjory Motiaytis, filed a complaint pursuant to

the Act alleging that she is the owner of real property located within 1200 feet of 516 Cummings
Avenue in Waukegan, a single-family home owned by defendants, Richard and Ethel Kelly,
through a trust. The parties do not dispute that the home was substantially damaged by a fire, on
May 15, 2015. Motiaytis’ complaint alleged that the building was vacant and was not being
maintained, in violation of the City of Waukegan’s building ordinances. Specifically, Motiaytis
alleged 13 building code violations including significant structural damage to the building and
roof as well as boarded up doors and windows, overgrown vegetation, an unpassable entryway
and exterior staircase, an accumulation of garbage and debris (also exterior), an abandoned
trailer, and deteriorated siding. The fence, too, was in considerable disrepair. Motiaytis sought an
order requiring the Kellys to abate the violations or to demolish the building. Photographs of the
property were eventually introduced as exhibits, which show that on the date of the complaint the
house appeared as described.
13

The Kellys never answered the complaint and instead filed a series of responses in which

(in relevant part) they asserted that they had “diligently” sought to repair the house, and then to
demolish it. The address is now a flat vacant lot, but despite the Kellys’ assertions, this case was
not moot as there was the matter of attorneys’ fees under the Act. In this regard, in a rather
idiosyncratic practice, many of the Kellys’ assertions came in the form of factual statements
made by their attorney in their various motions—statements indicating that the building was
“timely demolished; graded and grass planted” and denying that the complaint “played any part
whatsoever in said demolition, grading and planting of grass.”

-2-

2019IL App (2d) 180599-U
1^

Ultimately, the trial court denied the Kellys’ motions to dismiss and granted Motiaytis’

motion for summary judgment. The court found evidence that, on the date Motiaytis’ complaint
was filed, the Kellys’ property was in violation of Waukegan’s building code. The court also
found evidence that the Kellys were issued a demolition permit for the property on June 27,2016
(i.e., 13 days after Motiaytis filed her complaint) and evidence that the property had since been
demolished. However, the court could only determine the building may have been demolished as
early as July 8, 2016 (although the record indicates it was more likely demolished sometime in
2017), which still would have been after Motiaytis’s complaint. Accordingly, the trial court
awarded Motiaytis attorneys fees of approximately $14,000.

15

The Kellys appeal and we affirm. We note that both parties have presented a variety of

standards of review. We clarify at the outset that the matter before us is the trial court’s grant of
summary judgment to Motiaytis, which we review de novo. See Seymour v. Collins, 2015 IL
118432, Tf 42.
116

As in the trial court, the Kellys argue that they were entitled to some sort of notice before

Motiaytis could lawfully proceed with her complaint under 65 ILCS 5/11-13-15. The Kellys
once again misread the statute, the plain language of which states that it is the City of Waukegan,
and not the Kellys that are entitled to notice of a private code-enforcement action. See 65 ILCS
5/11-13-15 (stating that “notice of such action^ shall be served upon the municipality at the time;
suit is begun, by serving a copy of the complaint on the chief executive officer of the
municipality”). Accordingly, the trial court was correct that under the statute, the Kellys were not
entitled to any pre-suit notice. The Kellys also assert that Motiaytis failed to show she was or
would be “substantially affected” by their building-code violations. The plain language of the
statute, however, explains that “[a]n owner or tenant heed not prove any specific, special or

-3 -

2019 IL App (2d) 180599-U
unique damages to himself or his property or any adverse effect upon his property from the
alleged violation in order to maintain a suit under the foregoing provisions.” Id. And, citing dicta
from Burroughs v. Hills, 564 F. Supp. 1007 (N.D. Ill. 1983), while the Kellys maintain that the
Act does not entitle Motiaytis to attorney fees, it plainly provides that when the court finds that
the defendant has engaged in any prohibited activities, “the court shall allow the plaintiff a
reasonable sum of money for the services of the plaintiff’s attorney.” Here, the trial court made
that finding and it appropriately awarded Motiaytis reasonable attorneys’ fees.

117

Finally, to the extent the Kellys challenge the trial court’s ruling on their motion to

dismiss, their only assertion is that the property was “not vacant.” The Kellys fail to address that
their denial merely leads to a question of fact, which in and of itself means that count would
survive a motion to dismiss. See Henderson Square Condominium Association v. LAB
Townhomes, LLC, 2015 IL 118139, ]f 48. The Kellys also fail to address the remaining 13
alleged building code violations in plaintiffs complaint, any one of which would have provided
a basis for the trial court to deny their motion. Cf. 735 ILCS 5/2-619(a)(9).
If 8

Before closing, we note that the Kellys’ appellate briefs violate numerous Supreme Court

Rules governing the formatting and substance of briefs. The text within the brief is not double
spaced, and despite the variety of fonts used (many of which appear to be of the prohibited
“condensed type”), all appear to be smaller than 12-point typeface. Cf Ill. S. Ct. R. 341(a). The
margins are also improper Cf. id. The Kellys’ statement of facts is a threadbare and
unilluminating 12 lines of text, two of which easily could be stricken as argumentative. Cf. Ill. S.
Ct. R. 341(h)(6). Moreover, the arguments are made in summary fashion, often with authority
that has little relevance. Cf. Ill S. Ct. R. 341(h)(7). And, finally, the Kellys certificate of
compliance fails to state the precise number of pages or words in the brief, and instead merely

-4-

2019 IL App (2d) 180599-U
notes that it is “less than 15,000 words and less than 50 pages.” Cf. Ill. S. Ct. R. 341(c). The brief
could justifiably be stricken and the appeal dismissed (see Hall v. Naper Gold Hospitality LLC,
2012 IL App (2d) 111151, 7), but we choose to resolve this case on its merits in the interest of
justice.
19

For the reasons stated, we affirm the judgment of the Circuit Court of Lake County.

Tf 10

Affirmed.

-5-

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
CAROLYN TAFT GROSBOLL
Clerk of the Court

April 07, 2020

(217) 782-2035
TDD: (217)524-8132

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

Earline D. Navy
Law Offices of Earline D. Navy
2813 19th Place
North Chicago, IL 60064
In re:

Motiaytis v. Kelly
125419

Today the following order was entered in the captioned case:
Motion by Petitioners for leave to file a motion for reconsideration of the
order denying petition for leave to appeal. Denied.
Order entered by the Court.
This Court’s mandate shall issue forthwith to the Appellate Court, Second
District.
Very truly yours,

dm

6

Clerk of the Supreme Court
cc:

Amy Lynn Lonergan
Appellate Court, Second District

t

Additional material
from this filing is
available in the
Clerk's Office.

